Supreme Court, U.S.
FILED

IN THE

JUM 1 2021

SUPREME COURT OF THE UNITED STATES

OFFlCEOFW^Si

Daryl Barley

— PETITIONER

(Your Name)
vs.
United States of America — RESPONDENT (S)
ON PETITION FOR A WRIT OF CERTIORARI TO

Fourth Circuit of Appeals Court
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

04! t>

Daryl Barley

(Your Name)
FCI Butner II,PO Box 1500

(Address)
Butner,NC 27509
(City, State, Zip Code)
NA

(Phone Number)

QUESTION(S) PRESENTED
1. Whether the "clear and; convincing evidence standard" should
be used instead of the ?tpreponderance of evidence standard"
when determining the revelant conduct in a First Step Act
Reduction Motion under Sec. 404?

2. Whether the Sixth Amendment protections for Effective Assis
tance of Counsel are to be applied on the First Step Act
Reduction Filings?

3. Whether the Court should have Remanded for futher consideration
of the First Step Act Sec. 401 , 851 changes, seeing that the
Virginia prior used no longer qualifies today as a 851 predicate?

■i

r

LIST OF PARTIES

[ x| All parties appear in the caption of the case on the cover page.
r ] All parties do not appear in the caption of the case on the cover page. A list of ‘
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

ii

1

TABLE OF CONTENTS

1

OPINIONS BELOW

2

JURISDICTION...............................................................................

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE............................ .................

5-9

REASONS FOR GRANTING THE WRIT..............................

10

CONCLUSION........................:..................... :........... ;—

INDEX TO APPENDICES

APPENDIX A

Request for En Banc & Denial. ,as well as
Request to Recall Mandate & Order

APPENDIX B

Fourth r.ir. of Appeal .filing and Order and
Supplement(s)

APPENDIX C

District Court Filings and Orders surrounding
First Step Act Relief

APPENDIX D

Letters from Appointed Counsel

APPENDIX E
APPENDIX F

'

Excerpts from 2255 Order
State of Virginia Records showing that the
petitioner never served 12 over more consecutive
months, thus deeming it inapplicable for a 851
Enhancement today.

iii

table of authorities cited

CASES
Alleyne v US 133 S.Ct 2151 (2013)......
Blakely v Washington 542 US 296 (2004)

PAGE NUMBER
6
6

Strickland v Washington 466 US 668 (1984)

6
7-8

US v Booker 543 US 220 (2005)............................ ..
US v Chambers 956 667 (4th Cir. 2020).............

6
Passim

US v Chew 18-50301 (9th Cir. 2020)...........
US v Rodriguez 921 F.3d 1149 (9th (jir. 2018)
Richard v US 18-7036 (Sp. Ct, GVR 2019)-------

6

Cunningham v California 549 US 270 (2007)

6
7-8

statutes and rules

21 use 841(a).........

Passim

21 use 841(b)(1)(b)

Passim

21 USC 851
First Step Act Sec 401'
Passim

First Step Act Sec 404
U.S.S.G. lbl

OTHER
NA
iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[X] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix _A
the petition and is
5 or,
[x] reported at US v Barley 20-6760
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
B

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[x] reported at US v Bariev._4: lO-cx-ODD! n-.JTA-i
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix----- to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the —
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[ x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was 12/21/20
[ ] No petition for rehearing was timely filed in my case.
[x] A timely petition for rehearing was denied teethe United States Court of
Appeals on the following date: ---- ——’-------------------- , and a copy of the
A
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on May 77,2021
to and including June 25,2021
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
________________ ;_____, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
2

>5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Constitutional Aspect: Fifth Amendment, Equal Protections Clause
and Due Process Clause
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a grand
jury except in cases arising in the land or naval forces, or in
the miltia, when in actual service in time of war or public danger
nor shall any person be subject for the same offense to be twice
put in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be deprived of
life, liberty, or property, withou-t DUE PROCESS of law; nor shall
private property be taken for public use,without just compensation.

First Step Act Sec 401: 851 Enhancement Provisional Changes
Title IV-Sentencing Reform Act, Sec 401, Reduce & Restrict Enhan­
ced Sentencing For Prior Drug Felonies.
(a) Controlled Substances Act Amendments—The Controlled Substance^
Act (21 USC 801 et. sea.)is ! amended. .--( 1) in section 102 (21 USC
802) by adding at the end the following: (57) The term serious
drug felony [means] an offense described in 924(e)(2) of title 18
United States Code, for which, —(A) the offender served a term
of imprisonment of more than 12 months ..
3

STATEMENT OF THE CASE
The petitioner (Barley) filed a Request to the Court for the
Appointment of Counsel and Reduction of Sentenceiifl*light of the
the First Step Act. The Court appointed counsel but due to the
Counsel's workload and failure to file in time, the Court proceeded
(

without the motion filed by the counsel and reduced the sentence
from 240 months to 230 months. The petitioner filed a Notice of
Appeal and during the appeal filing, the counsel became aware of
courts ruling and filed a motion to reconsider while attaching the
family letters in support. The Appeal Court Remanded to allow the
Reconsider, & the Court refused to lower the sentence and disregarded
letters in support and 851 impact. (See App'x

C and D)

The petitioner filed a timely notice of appeal again & then the
counsel moved to withdraw (App'x B & D).. The Fourth Circuit Court
of Appeals ruled on US v Chambers 19-7104 (4th Cir. 2020), which
held that the District Courts must consider the changes in law.But
Barley filed a Rule 28(j) in light of Chambers and was still denied.
(App'x B) Then Barley filed for a En Banc Hearing, which was also
denied on Jan 25,2021 but Barley did not receive any denial until
he called in May 2021 and the''clerk informed him of the denial. (See
App'x A Correspondence and Motion to Recall and Letter to Sp. Court
as well).
The Fourth Circuit Clerk stated that the petitioner has 150 days
from the Jan. 25,2021 date and the petitioner now files in time.
4

REASONS FOR GRANTING THE PETITION
1. Should the Courts be applying the "'clear and convincing evidence
standard" instead of the "preponderance of evidence standard
seeing that the McMillan v PA case has been overturned,when
viewing the First Step Act Reduction Motions?

The Circuit's are split on "'which standard" should be applied
Post Booker

Post Alleyne. The "clear and convincing evidence"

standard is defined in the Black Law's Abridged 10th ed. as follows:
■—Evidence indicating that the thing to be proved is highly probable
or reasonablly certain, This is a "greater burden" than the "preponderance of evidence standard1.
The petitioner took a plea in 2010 to 50 grains or more, and the
Court applied the 851, which doubled the mandatory 10 yr mandatory
minimum to 20 yrs. The day before the sentencing, he was arrested
& it.', did not include any additional cocaine base, but instead it
was a small amount of marijuana. Because of this, the orginal plea
and drug amount of 361_._/ grams of powder cocaine & 61_._7 grams of
cocaine base to a whooping 2 0_6_1_._7__g_i_a_ms__of__c_r_a_ck__c_o_c_ai_nj (App'x E)
even though the; petitioner.;. was never charged and convicted of the
marijuana,

5

In US v Rodriguez, 921 F.3d 1149 (9th Cir. 2018), the Ninth Cir
held that ’’without an explicit and specific drug quantity finding
..drug quantities in an adopted PSR were not binding in 2582 filings". In this case, the petitioner's count of conviction was for
a single and discrete act for sale of 61.7 grams of cocaine base.
The petitioner was never charged with a conspiracy offense, but
the day of the Sentencing, the Court adopted the massive change
in the PSR finding over the petitioner’s objections. This dramatic
drug finding increased by 2000 grams & based upon uncharged con­
duct should no longer suffice since the McMillan ruling has been
overturned by Alleyne.
The Ninth Circuit also pointed out that there is no uniformity
among the courts about which standard should be used Post Booker
and now Post Alleyne, Blakely v Washington, Cunningham v California
and..will require the Court to Grant the Certiorari to resolve
the ongoing split. (US v Chew 18—50301 (9th Cir. 20i9)
For example, In Chew, 18-50301 (9th Cir.2019) the panel held
that .."the unclarity of [when] to use the clear & convincing
standard should be applied at sentencing instead of the preponderanee of evidence standard. Here in Barley’s case, the additional
arrest involved less than 10 grams of marijuana being uncovered
but led to the PSR applying 2000 additional grams of crack that
was never discovered in the arrest.This type of increase and
drug findings should mandate the additional heightened standard
of clear and convincing versus the lower standard of preponderance.

6

Therefore, the Court should Grant the Writ to determine the
correct standard to be applied.

Issue Two
The Sixth Amendment Constitutional Protections & Strickland
Ineffective Assistance Standards Should be Applied in the 3582
Proceedings.

The petitioner was appointed counsel who did not have time to
file the Motion on Barley’s behalf, even after the Court had
repeatedly notified the attorney and the attorney repeatedly stated this or that date. But never did. The court became frustrated
orders and her
with the counsel's failures to adhere to the court
failure to keep her promise to the court and her client.Mr.Barley
■

had his family send the family support letters and he had sent
her the Progress Report. Inspite of all parties making her aware
she never kept her word and did not file. The Court took the matfrom 240 mtns to zoO
ter in his own hand and reduced the sentence
mths. The Counsel notorious name is Kristin Lee,E.DVA Danville Div.
Mr. Barley filed an appeal, but after he filed the appeal and
it was docketed, then the Counsel finally filed a Motion to Recon
-sider and then attached the family support and other information
the court \ needs "to make a informed decision. The Appeal Court
7

Remanded the Case back for futher reconsideration, in which the
counsel was suppose to again file a full brief in support of the
reduction, in which she never did. The Court did not consider the
851 statutory changes and therefore, declined to reduce futher
and led to the 2nd£appeal filed by Barley, in which later the same
counsel filed to withdraw.
The Strickland test has 2 prongs. Cause and Prejudice. In this
case , the Counsel was the cause of the court being forced to act
without all the information and without the full merits brief and
prejudice was that Barley was stuck with the 851 and extra drug
weight. Therefore, this Court should Grant the Writ to make a
announcement that the 3582 filings also have Sixth Amendment pro­
tections and that the counselors can be held as ineffective during
stage as well.

Issue Three:
Whether the Court should Remand(GVR) to allow the Court Remove &
Reconsider the 851 impact, seeing that his Virginia prior no longer
qualifies today..
In Richard v US, 18—7036 (3p. Ct 2019) • • the Court GVR the case
in light of the First Step Act changes to Sec 403. In this case,
the petitioner relies on the First Step Act sec 401 and request
that the Court GVR his case and allow the Court to Reconsider
as well the impact upon his state Possession offense.(App'x F)
8

The petitioner's sentence was reduced from 240 mths to 230 mths
but this decision was not guided by the US v Chamber5s 956 F.3d
667(4th Cir. 2020). The 851 is a grave increase based upon a prior
drug offense. Today, the First Step Act states that the prior
must have occured within 15 yrs of the instant offense and that
the petitioner must have served 12 cosecutive mths or more on
the prior. In Barley's case, he served 10 mths not 12 or more.
Therefore, his case should be GVR. (See App''x F)

In the end, any of the three issues herein warrant the Writ of
Certiorari and collectively deserve to be heard so that the Court
may issue guidance for all the lower courts as well. In alternative
the Court should Grant, Vacate and Remand for futher Consideration.

9

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Mr. Daryl Barley,14643-084

Date:

J une

lit

,2021

10

